NO. 20-1432
In the

Supreme Court of the United States
________________
UNITED STATES OF AMERICA,
Cross-Petitioner,
v.

MAINE COMMUNITY HEALTH OPTIONS,
Cross-Respondent.
________________
UNITED STATES OF AMERICA,
Cross-Petitioner,
v.
COMMUNITY HEALTH CHOICE, INC.,
Cross-Respondent.
________________
On Conditional Cross-Petition for Writ of
Certiorari to the United States Court of Appeals
for the Federal Circuit
________________
BRIEF IN OPPOSITION
________________
STEPHEN J. MCBRADY
PAUL D. CLEMENT
CROWELL &
Counsel of Record
MORING LLP
ERIN E. MURPHY
1001 Pennsylvania Ave., C. HARKER RHODES IV
ELIZABETH HEDGES
NW
Washington, DC 20004 KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
(202) 624-2547
smmcbrady@crowell.com Washington, DC 20004
(202) 389-5000
Counsel for Maine
paul.clement@kirkland.com
Community Health
Options
Counsel for Cross-Respondents
(Additional Counsel Listed on Inside Cover)
May 17, 2021

WILLIAM L. ROBERTS
FAEGRE DRINKER
BIDDLE & REATH
2200 Wells Fargo Ctr.
90 South 7th Street
Minneapolis, MN 55402
(612) 766-7000
william.roberts@faegredrinker.com
Counsel for Community
Health Choice, Inc.

QUESTION PRESENTED
Just this past Term, this Court held in Maine
Community Health Options v. United States, 140 S.Ct.
1308 (2020), that the government was obligated to make
the risk corridor payments required by the unambiguous
shall-pay command of §1342 of the Patient Protection
and Affordable Care Act (“ACA”), and that insurers who
performed in full could bring suit in the Court of Federal
Claims to recover the amounts that the government
“shall pay.” In the decision below, the Federal Circuit
recognized that under Maine Community, the
government must make the cost-sharing reduction
payments required by the equally unambiguous shallpay language of §1402 of the ACA, and insurers could
sue in the Court of Federal Claims to recover those
payments. But it then held, based on a purported
“analogy to contract law,” that the remedy for the breach
of the government’s statutory shall-pay obligation is not
an order to pay the statutory shall-pay amount, but only
a far smaller amount (in the government’s view, perhaps
even zero) that discounts the specific sums the
government promised to pay to account for premium
increases and related tax credits prompted by the
government’s breach. Petitioners in No. 20-1162, crossrespondents here, seek review of that latter holding.
The government has now filed a conditional crosspetition presenting the following question:
Whether, as this Court held in Maine Community
and the Federal Circuit recognized below, an insurer
that has performed in full has a Tucker Act remedy to
recover payments that the unambiguous shall-pay
language of the ACA explicitly mandates but the
government has nevertheless refused to make.

ii
CORPORATE DISCLOSURE STATEMENT
Cross-respondents Maine Community Health
Options and Community Health Choice, Inc. have no
parent corporations, and no publicly held company owns
10% or more of either cross-respondent’s stock.

iii
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
CORPORATE DISCLOSURE STATEMENT ............ ii
TABLE OF AUTHORITIES ...................................... iv
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE ................................... 3
A. Factual and Statutory Background ............. 3
B. Proceedings Below ........................................ 9
REASONS
FOR
DENYING
THE
CROSS-PETITION ................................................ 15
I.

The Government’s Question Presented Is
Squarely Resolved By Maine Community ........ 18

II. The Government’s Remaining Arguments
Are Equally Unpersuasive ................................ 28
CONCLUSION ......................................................... 32

iv
TABLE OF AUTHORITIES
Cases
Clark v. Martinez,
543 U.S. 371 (2005) ................................................ 27
Common Ground Healthcare Coop.
v. United States,
142 Fed. Cl. 38 (2019) ............................................ 11
Local Initiative Health Auth. for L.A. Cnty.
v. United States,
142 Fed. Cl. 1 (2019) .............................................. 11
Maine Cmty. Health Options
v. United States,
140 S.Ct. 1308 (2020) ..................................... passim
Moda Health Plan, Inc. v. United States,
908 F.3d 738 (Fed. Cir. 2018) ................................ 26
Mont. Health Co-op v. United States,
139 Fed. Cl. 213 (2018) .......................................... 11
Sanford Health Plan v. United States,
139 Fed. Cl. 701 (2018) .......................................... 11
Sanford Health Plan v. United States,
969 F.3d 1370 (Fed. Cir. 2020) ...................... passim
Sekhar v. United States,
570 U.S. 729 (2013) ................................................ 17
United States v. Bormes,
568 U.S. 6 (2012) .................................................... 19
Statutes
26 U.S.C. §36B ........................................................ 5, 6
42 U.S.C. §300gg-18 ................................................. 30
42 U.S.C. §18031 ........................................................ 3

v
42 U.S.C. §18082 ........................................................ 6
Regulation
45 C.F.R. §158.210 .................................................... 31
Other Authorities
Pet.Br.59-60, Moda Health Plan, Inc. v.
United States, No.18-1028 (U.S. filed Aug.
30, 2019) ................................................................. 26
U.S.Br.18-43, Maine Cmty. Health Options v.
United States, No.18-1023 (U.S. filed Oct.
21, 2019) ................................................................. 18
U.S.Br.49, Maine Cmty. Health Options v.
United States, No.18-1023 (U.S. filed Oct.
21, 2019) ................................................................. 26

INTRODUCTION
Barely a year ago, this Court in Maine
Community squarely rejected an attempt by the
federal government to evade its unambiguous
statutory shall-pay obligations under §1342 of the
Affordable Care Act. The Court held that where an
explicit money-mandating statute requires the
government to pay an insurer who has performed in
full a specific amount, the failure of Congress to
appropriate sufficient funds to fulfill the government’s
obligations does not make its obligations disappear.
Instead, the insurer can sue the government under the
Tucker Act in the Court of Federal Claims to recover
the statutorily mandated but unpaid amount.
The Federal Circuit panel below correctly
recognized that Maine Community doomed the
government’s no-appropriations-no-obligation defense
here and compelled the conclusion that insurers can
sue the government for unpaid cost-sharing reduction
payments owed under the unambiguous and
mandatory text of §1402 of the ACA. But the panel
then lost the thread and sharply departed from Maine
Community’s straightforward teachings, relying on a
purported “analogy to contract law” to reduce the
government’s obligations based on a novel
“mitigation” theory with no support in either the
statutory text or any common-law precedent. That
damages holding not only is profoundly flawed, but
threatens serious consequences for the American
health insurance market and for the government’s
credibility as a reliable contracting partner. For the
reasons explained by the petitioners in No. 20-1162
(cross-respondents here) and numerous amici, this

2
Court should review and reverse that misguided and
dangerous damages holding.
The government’s conditional cross-petition, by
contrast, asks this Court to review an aspect of the
Federal Circuit’s decision that was faithful to Maine
Community: its holding that insurers can sue the
government under the Tucker Act to recover the
unpaid cost-sharing reduction amounts that §1402
unambiguously mandates. There is no reason to grant
that request. As the Federal Circuit explained in
detail, Maine Community makes inescapably clear
that petitioners are entitled to bring suit under the
Tucker Act, as there is no plausible basis for
distinguishing the unambiguous shall-pay mandate of
§1402 from the unambiguous shall-pay mandate that
supported a Tucker Act suit in Maine Community.
Remarkably, the government does not really
dispute that the Federal Circuit correctly applied the
Maine Community framework, or even claim that the
court’s holding on liability was necessarily wrong.
Instead, the government’s liability argument is as
conditional as its cross-petition: it argues that the
Federal Circuit’s liability holding would become
“infirm” only in the event its damages holding were
reversed. Put differently, if the government really
must honor its shall-pay obligation in full, then the
obligation itself disappears. But nothing in Maine
Community (or anything else) supports that curious
tail-wagging argument.
Neither the absence of
appropriated funds nor the extent of the government’s
statutory shall-pay obligations takes the government
off the hook when it makes a clear promise to pay for
performance and its counterparty performs in full.

3
Indeed, if this curious theory were viable, it would
have applied equally in Maine Community. On the
contrary, this Court explicitly rejected precisely that
kind of results-oriented reasoning. Accordingly, while
the government’s cross-petition underscores the
magnitude and practical import of the Federal
Circuit’s mistaken damages holding and the need for
further review on that issue, it provides no basis for
revisiting a liability finding that follows ineluctably
from Maine Community.
STATEMENT OF THE CASE
A. Factual and Statutory Background
1. The ACA aimed to extend affordable health
insurance to millions of uninsured and underinsured
Americans. To that end, the ACA established new
“health benefit exchanges” on which individuals and
small groups could purchase “qualified health plans”
from participating insurers. 42 U.S.C. §18031(b)(1).
These exchanges are intended to provide uninsured or
underinsured individuals with ready access to health
insurance plans that will provide them with adequate
healthcare coverage at affordable prices.
To ensure adequate coverage, the ACA requires
qualified health plans offered on the exchanges to
provide a minimum level of “essential health benefits.”
See 42 U.S.C. §18022(b). The ACA defines four level
of coverage—bronze, silver, gold, and platinum—
based on the percentage of the cost of essential health
benefits that the insurer pays under each plan. Id.
§18022(d)(1); see Pet.App.3. 1 Under a bronze plan, the
1 “Pet.” refers to the petition in No. 20-1162. “Pet.App.” refers
to the petition appendix in No. 20-1162. “U.S.Pet.” refers to the

4
insurer pays 60% of the full actuarial value of the
healthcare benefits covered under the plan (and the
insured person is responsible for the other 40%); under
a silver plan, the insurer pays 70%; under a gold plan,
the insurer pays 80%; and under a platinum plan, the
insurer pays 90%.
42 U.S.C. §18022(d)(1); see
Pet.App.3.
2. The ACA includes several provisions designed
to reduce the costs of healthcare coverage for
individuals buying insurance on the exchanges. This
Court already confronted one of those provisions, the
risk-corridors payments set forth in §1342 of the ACA,
in Maine Community. This case involves another, the
cost-sharing reduction provision in §1402, codified at
42 U.S.C. §18071. Unlike the temporary risk-corridor
payments in §1342, which applied only in the first
three years of the exchanges, the cost-sharing
provisions of §1402 are a permanent feature of the
ACA. Section 1402 seeks to reduce the cost of medical
care for eligible insured individuals by reducing their
“cost-sharing” payments—out-of-pocket costs such as
“deductibles, coinsurance, copayments, or similar
charges.” Id. §18022(c)(3)(A). To that end, §1402
requires insurers to reduce cost-sharing payments for
eligible individuals insured under ACA silver plans,
and commits the government to reimburse insurers
for those reductions. See id. §18071.
Specifically, §1402 requires insurers to reduce the
cost-sharing payments owed by “eligible insureds,”
defined as any person whose household income is
government’s conditional cross-petition here, and “U.S.Opp.”
refers to the government’s brief in opposition in No. 20-1162.

5
between 100% and 400% of the poverty line and who
is enrolled in a silver-level qualified health plan. Id.
§18071(b). The Secretary “shall notify” the insurer of
each eligible insured covered by that insurer, at which
point the insurer “shall reduce” the cost-sharing
obligations for that insured based on the insured’s
household income level. Id. §18071(a), (c). Depending
on the insured’s income level, those reductions require
the insurer to cover up to 94% of the insured’s costs (as
opposed to 70% for a silver plan without cost-sharing
reductions). Id. §18071(c)(1)(B), (c)(2).
Critically, while §1402 unambiguously requires
insurers to make those reductions, it does not leave
the resulting financial burden on the insurers.
Instead, §1402 provides in unambiguously mandatory
language that the Secretary “shall make periodic and
timely payments to the [insurer] equal to the value of
the reductions.”
Id. §18071(c)(3)(A).
As the
government recognizes, that language unambiguously
“direct[s] the government to make advance payments
to insurers equal to the amount of those mandated
cost-sharing reductions (CSR payments).” U.S.Pet.3;
see Sanford Health Plan v. United States, 969 F.3d
1370, 1373 (Fed. Cir. 2020).
3. The ACA also includes a separate “premium tax
credit” provision—§1401, codified at 26 U.S.C. §36B—
that aims to lower the premiums that low-income
individuals must pay to obtain coverage on the
exchanges, by providing a federal subsidy for those
premiums in the form of a refundable tax credit. See
Pet.App.4; Sanford, 969 F.3d at 1374.
Section 1401 defines an “applicable taxpayer”
eligible for a premium tax credit as any taxpayer

6
whose household income is between 100% and 400% of
the poverty line, the same thresholds used to define an
“eligible insured” under §1402. Compare 26 U.S.C.
§36B(c)(1), with 42 U.S.C. §18071(b)(2). But unlike
the cost-sharing reductions in §1402, which are
available only to persons who purchase silver plans,
the premium tax credit is available to any eligible
taxpayer who purchases any qualified health plan on
an ACA exchange, whether bronze, silver, gold or
platinum. Compare 26 U.S.C. §36B(c)(1), with 42
U.S.C. §18071(b)(1); see Sanford, 969 F.3d at 1374-75.
The amount of each taxpayer’s premium tax credit is
set by a statutory formula that depends on (1) the
taxpayer’s household income and (2) the premiums for
the second-lowest-cost silver plan offered on the
taxpayer’s local ACA exchange, regardless of whether
the taxpayer actually enrolls in that plan. 26 U.S.C.
§36B(b)(2)(B), (3); see Sanford, 969 F.3d at 1375.
The government pays these tax credits directly to
insurers, who apply the payments toward the
insured’s monthly premiums, so that “the amount of
the premiums charged by the insurers to the insured
is effectively reduced,” and the amount the insured
pays in premiums is, in fact, reduced. Pet.App.4; see
26 U.S.C. §36B(f); 42 U.S.C. §18082(a)(3). The
payment formula ensures that an insurer cannot
simply pocket the amount of the premium tax credit
payments itself by increasing its own premiums an
equivalent amount, because, inter alia, the payments
are keyed to the premiums for the second-lowest-cost
silver plan in the market, not what the insurer
actually charges. Moreover, while both §1401 and
§1402 are tied (in different ways) to silver plans,
nothing in either section provides for adjustments in

7
the amount of §1402 reimbursements to account for
§1401 tax credits or vice-versa. There is one final
difference between the cost-sharing reimbursements
mandated by §1402 and the tax credits authorized by
§1401: while the reimbursements at least arguably
required annual appropriations, the tax credits were
subject to permanent appropriations. See Pet.App.7.
4. The first open enrollment period on the
exchanges began in October 2013, allowing customers
to purchase health coverage for the 2014 calendar
year. In January 2014, as soon as coverage was first
provided via the exchanges, insurers were obligated to
make cost-sharing reductions for eligible insureds,
and the government began making its own costsharing reduction reimbursement payments to
insurers as required by §1402 and its implementing
regulations. See Sanford, 969 F.3d at 1377. The
government likewise provided the requisite premium
tax credit payments to the insurers under §1401. The
government continued to make those payments for the
next three and a half years. Id.
In October 2017, however, the Secretary
unilaterally “announced that the government would
cease
payment
of
cost-sharing
reduction
reimbursements,” asserting (contrary to HHS’s
position for the previous three and a half years) that
it was under no binding obligation to make the
payments because Congress had failed to appropriate
funds to make them. Pet.App.6; see Sanford, 969 F.3d
at 1377. That announcement, three-quarters of the
way through the 2017 plan year, did nothing to relieve
insurers of their obligation under §1402 to continue
offering cost-sharing reductions to their eligible silver-

8
plan customers during the rest of the 2017 plan year
or subsequent plan years. Pet.App.6; see 42 U.S.C.
§18071(a), (c). Instead, it left the insurers with a nonnegotiable obligation to provide cost-sharing
reductions while the federal government reneged on
its statutory obligation to reimburse those costs.
The situation continued in subsequent years, with
insurers statutorily obligated to provide cost-sharing
reductions and the government refusing to honor its
obligation to reimburse those reductions, despite an
unambiguous statutory command to do so, on the
simple ground that the funds had not been
appropriated. Put differently, the insurers continued
to perform their statutory obligations in full, while the
government’s arrears mounted. See CHC C.A.Dkt.16
at 13 (admitting to “approximately $433 million in
unmade cost-sharing payments during the last
quarter of 2017 and approximately $6.7 billion in
unmade advance cost-sharing payments during the
2018 calendar year”).
In light of the government’s failure to meet its
unambiguous obligations under §1402, many insurers
sought permission from state regulators to increase
their premiums for 2018 (and subsequent years)—
which some, but not all, states permitted. Pet.App.78. In states where regulators approved premium
increases, those increases unsurprisingly fell most
heavily on silver plans—i.e., the plans for which
insurers remained statutorily obligated to provide
cost-sharing reductions on an ongoing basis despite
the government’s refusal to honor its end of the
bargain. Id.; 42 U.S.C. §18071(b)(1). Those premium
increases applied not only to individuals who bought

9
and paid for their own insurance through an exchange
without government assistance, but also to some
individuals who were eligible for premium tax credits
under §1401. Because those tax credits are calculated
based on premiums for the second-lowest-cost silver
plan in the market (not each insurer’s own premiums),
any state-approved increase in an insurer’s premiums
did not necessarily result in a corresponding increase
in the premium tax credit payments it received under
§1401. See supra p.6. Nevertheless, many insurers
did receive some additional payments under §1401 as
a result of the state-approved premium increases.
Pet.App.7-8.
B. Proceedings Below
1. Cross-respondents Maine Community Health
Options and Community Health Choice, Inc. (“CHC”)
are health insurance providers that sell qualified
health plans on ACA exchanges in Maine and Texas,
respectively. Pet.App.8. As required by §1402, both
cross-respondents provided cost-sharing reductions to
eligible insureds on their silver-level plans.
Pet.App.9. But while cross-respondents extended
their insureds the cost reductions required by §1402,
the government has not upheld its end of the bargain.
Like all other insurers, cross-respondents have not
received a penny in cost-sharing reduction payments
from the federal government since October 2017,
leaving them saddled with tens of millions of dollars
in unreimbursed costs.
Cross-respondents had little choice but to file suit
against the United States in the Court of Federal
Claims seeking to recover the cost-sharing reduction
reimbursements they were owed under §1402.

10
Pet.App.9. In lengthy and detailed opinions, the Court
of Federal Claims (Sweeney, J.) ruled for crossrespondents, holding that the government could not
renege on its statutory commitment to reimburse
insurers for their cost-sharing reductions after crossrespondents had performed in full, and that crossrespondents had a clear right to sue the government
in the Court of Federal Claims for the payments that
the government unambiguously owed. Pet.App.60-78,
82-93; 116-48.
The court squarely rejected the
government’s primary argument that it had no
obligation to make payments under §1402 unless and
until Congress appropriated funds for those
payments, explaining that the government’s
unambiguous statutory commitment in §1402 was not
conditioned on future appropriations. Pet.App.60-71;
116-28.
The court likewise rejected the government’s
convoluted effort to demonstrate that Congress “did
not intend to provide a statutory damages remedy for
the government’s failure to make the cost-sharing
reduction payments.” Pet.App.66, 123. According to
the government, because insurers theoretically could
recoup their losses by securing state approval for
increases in the premiums they charged all their
customers in future years, and could obtain increased
premium tax credit payments under §1401 for a subset
of those customers, Congress must have affirmatively
wanted insurers to raise their premiums in that
fashion, rather than sue the government, in the event
the government decided to bilk them. Pet.App.66-67,
77-78; 123-24, 134.
The court was wholly
unpersuaded by that theory, noting that the
government could not identify “any statutory

11
provision permitting the government to use premium
tax credit payments to offset its cost-sharing reduction
payment obligation,” or even any evidence in the
ACA’s legislative history suggesting that Congress
intended to force insurers to seek premium increases
from state regulators if the government reneged on
Congress’ promises, let alone that the possibility of
such premium increases eliminated other remedies.
Pet.App.66, 125. Notably, the government did not
argue that any increase in payments under §1401
should reduce an insurer’s damages under some kind
of mitigation theory if insurers were entitled to sue; it
argued only that insurers should not be able to sue the
government at all for violating §1402. See Pet.App.66,
93 n.23, 123-24, 147 n.25.
Four other cases were brought before the Court of
Federal Claims by various insurers seeking to recover
unpaid cost-sharing payments under §1402, including
a class action involving more than 100 insurers and
seeking some $1.5 billion in unpaid 2018 payments.
Those four cases were assigned to three different
judges (including Judge Sweeney), all of whom issued
detailed opinions unanimously agreeing that the
government is liable for the full amount of its unmet
cost-sharing obligations and that insurers could sue
the government for those unpaid amounts in the Court
of Federal Claims. See Common Ground Healthcare
Coop. v. United States, 142 Fed. Cl. 38 (2019)
(Sweeney, J.); Local Initiative Health Auth. for L.A.
Cnty. v. United States, 142 Fed. Cl. 1 (2019) (Wheeler,
J.); Sanford Health Plan v. United States, 139 Fed. Cl.
701 (2018) (Kaplan, J.); Mont. Health Co-op v. United
States, 139 Fed. Cl. 213 (2018) (Kaplan, J.).

12
2. The government appealed in each case. While
those appeals were pending, this Court decided Maine
Community.
In Maine Community, the Court
considered the government’s refusal to make
statutorily required payments to insurers under the
risk corridors program in ACA §1342. In §1342,
Congress provided that the Secretary of HHS “shall
pay” insurers a portion of any losses above a certain
threshold that insurers incurred on the exchanges in
their first three years of operation. 140 S.Ct. at 1316.
But when those payments came due, the government
refused to make them, arguing that it had no
obligation to pay because Congress had failed to
appropriate the necessary funds and that in any event
Congress did not intend to allow insurers to sue for
damages to recover those payments. Id. at 1319-31.
This Court rejected both arguments. It held that
the unambiguous shall-pay language of §1342
“created an obligation neither contingent on nor
limited by the availability of appropriations,” and that
Congress did not repeal that government obligation by
failing to appropriate money to pay it. Id. at 1319-27.
Put simply, “the statute meant what it said: The
Government ‘shall pay’ the sum that §1342
prescribes.” Id. at 1321.
The Court also held that the insurers could sue
the government for that sum in the Court of Federal
Claims. Id. at 1327-31. By instructing that the
government “shall pay” the amount specified by the
statutory formula, §1342 “falls comfortably within the
class of moneymandating statutes that permit
recovery of money damages in the Court of Federal
Claims.” Id. at 1329. Indeed, the Court found the

13
insurers’ suit for “specific sums already calculated,
past due, and designed to compensate for completed
labors” to be “in the Tucker Act’s heartland.” Id. at
1330-31. Neither the ACA nor the Administrative
Procedure Act (“APA”) provided any alternative
judicial remedy, and thus a Tucker Act remedy was
plainly appropriate. Simply put, the statutory shallpay obligation gave rise to an equally clear shall-pay
remedy under the Tucker Act.
3. In light of Maine Community, the government
abandoned its argument that Congress’ failure to
appropriate funds eliminated the government’s costsharing obligations under §1402.
However, the
government continued to maintain that insurers had
no right to sue the government in the Court of Federal
Claims for the amounts it had refused to pay. In
addition, the government argued for the first time on
appeal that cross-respondents had “mitigated” their
damages by raising their premiums after the
government stopped making cost-sharing payments,
and that any additional premium tax credit payments
cross-respondents received under §1401 should be
deducted from the amount the government owed
under §1402—meaning, according to the government,
that it owed cross-respondents nothing at all for the
2018 plan year. CHC C.A.Dkt.56.
4. The Federal Circuit unanimously rejected the
government’s liability arguments in Sanford, finding
those arguments squarely foreclosed by this Court’s
decision in Maine Community. 969 F.3d at 1372-73.
As the panel explained, Maine Community “makes
clear that the cost-sharing-reduction reimbursement
provision” of §1402 “imposes an unambiguous

14
obligation on the government to pay money,” and that
the resulting mandatory obligation “is enforceable
through a damages action in the Court of Federal
Claims under the Tucker Act.” Id.
In the decision below, the same Federal Circuit
panel affirmed as to liability but reversed and
remanded as to damages. Pet.App.2. As in Sanford,
the panel agreed with the Court of Federal Claims
that §1402 “imposes an unambiguous obligation on
the government” to make cost-sharing reduction
payments. Pet.App.11; see Sanford, 969 F.3d at 137273, 1381. It likewise agreed that because §1402 is
money-mandating, cross-respondents could enforce
that unambiguous obligation by suing the government
for damages under the Tucker Act. Pet.App.11; see
Sanford, 969 F.3d at 1381-83. And it agreed that for
2017—the first year in which the government failed to
make those payments—the government owed crossrespondents the full amount Congress had promised
but HHS had failed to pay. Pet.App.11-12.
As to the cost-sharing reduction payments the
government owed for 2018, however, the panel
reached a very different result. Rather than requiring
the government to make the full payments Congress
mandated, the panel held that the government could
reduce the payments it owed for 2018 by claiming
“mitigation” based on “an analogy to contract law.”
Pet.App.12-13. In the panel’s view, insurers had
“mitigated the effects of the government’s breach” by
increasing their premiums, which in turn led some
insurers to receive “additional premium tax credits”
under §1401. Pet.App.23. Accordingly, the panel held
that the Court of Federal Claims should have reduced

15
the amount that the government owed under the
unambiguous terms of §1402 by the amount of those
additional premium tax credits. Pet.App.29. The
panel remanded for the Court of Federal Claims to
undertake the “fact-intensive task” of determining
“the amount of premium increases (and resultant
premium tax credits) attributable to the government’s
failure to make cost-sharing reduction payments.”
Pet.App.30.
REASONS FOR DENYING THE
CROSS-PETITION
The Federal Circuit’s decision below is deeply
flawed—but not in the way the government thinks. As
cross-respondents have explained in their petition for
certiorari in No. 20-1162, the Federal Circuit’s
damages holding cannot be reconciled with this
Court’s clear teachings in Maine Community that the
government must honor its statutory shall-pay
obligations, and that the government is liable for the
full amount of those obligations if it disregards them.
Pet.21-26. The Federal Circuit’s contrary holding has
no basis in the statutory text or any recognized
common-law doctrine and would destroy the
government’s credibility as a contracting partner.
Pet.26-36.
The liability holding that the government
challenges in this conditional cross-petition, by
contrast, follows directly from Maine Community and
is one thing that the decision below plainly got right.
As the Federal Circuit explained in detail in Sanford,
that holding—that insurers have a valid Tucker Act
remedy in the Court of Federal Claims to recover the
unpaid cost-sharing reduction payments that §1402

16
unambiguously obligates the government to make—is
compelled by both statutory text and Maine
Community. Maine Community makes clear that an
unambiguous money-mandating statute provides a
Tucker Act claim unless either the statute itself or the
APA provides an alternative judicial remedy. As the
Federal Circuit carefully explained in Sanford, §1402
is indisputably money-mandating, and neither it nor
the APA provides any alternative judicial remedy to
displace the Tucker Act. That should be the end of the
matter.
The government notably does not address any
part of the test this Court set forth in Maine
Community or contend that either the ACA or APA
provides an alternative judicial remedy. Indeed, the
government does not even argue that the Federal
Circuit necessarily erred in allowing a Tucker Act suit.
Its argument is every bit as contingent as its crosspetition: It argues only that if this Court were to
reverse on damages (and hold that the government
must pay the full amounts that §1402 unambiguously
requires), then the Federal Circuit’s holding that a
Tucker Act is available would somehow become
“infirm.” U.S.Pet.13. In other words, the government
thinks that if it really must honor its full shall-pay
obligation, then Congress could not have intended to
allow a Tucker Act suit at all. That too-big-to-sue
argument is the epitome of the “results-oriented
reasoning” this Court rejected in Maine Community.
140 S.Ct. at 1331 n.14. It also defies common sense:
what the Congress that enacted the ACA intended was
for insurers to make the mandatory cost reductions
and for the government to hold up its end of the
bargain. If a later Congress frustrated that intent by

17
failing to uphold its end of the bargain, then the
government’s obligation does not disappear and the
proper remedy is a Tucker Act action. That is the clear
teaching of Maine Community and what the Federal
Circuit held in Sanford.
Instead of that straightforward result, the
government claims that, had Congress anticipated
that the government would breach its unambiguous
§1402 obligations, what Congress really would have
wanted insurers to do is not to sue to obtain monetary
relief (which would incentivize the government to
comply with its §1402 obligations) but to instead seek
state approval to start charging everyone more for
insurance, so that they could obtain additional
premium tax credits under §1401 for a subset of their
customers (and in the process create a permanent
work-around that would obviate the need for the
government ever to honor its §1402 obligations). The
notion that insurers’ only remedy for the government’s
default would be to seek state approval to increase
their premiums in ways that would render the
expressly mandatory language of §1402 effectively
elective would be bizarre enough in any context. That
Congress would intend that premium-increasing
result in enacting the Affordable Care Act “sounds
absurd, because it is.” Sekhar v. United States, 570
U.S. 729, 738 (2013).
Finally, the government’s unabashedly policydriven arguments are not only legally misplaced but
factually unfounded, as there is no prospect of any
“double recovery” should this Court hold the
government to the full extent of its statutory shall-pay
obligation.
Accordingly, while the conceded

18
magnitude of the government’s breach underscores
the need for this Court to review and reverse the
Federal Circuit’s erroneous damages holding, it
provides no basis to revisit that court’s manifestly
correct conclusion that insurers can bring Tucker Act
suits in the Court of Federal Claims to recover the
unpaid cost-sharing reduction payments that §1402
unambiguously requires.
I.

The Government’s Question Presented Is
Squarely Resolved By Maine Community.

Maine Community squarely forecloses any
argument that insurers cannot sue in the Court of
Federal Claims for payments that are explicitly
required by the unambiguous money-mandating
language of §1402. The government’s desire to
relitigate that aspect of Maine Community hardly
justifies granting review on an issue that this Court
conclusively resolved just last Term.
1. In Maine Community, the government raised
the same basic argument it seeks to raise here: that
even if the ACA expressly required the government to
pay insurers specific amounts defined by statute, the
insurers had no right to sue the government to recover
those amounts.
See U.S.Br.18-43, Maine Cmty.
Health Options v. United States, No.18-1023 (U.S.
filed Oct. 21, 2019). This Court flatly rejected that
argument, holding that the insurers “properly relied
on the Tucker Act to sue for damages in the Court of
Federal Claims.” Maine Cmty., 140 S.Ct. at 1327. As
the Court explained, a statutory provision with
unambiguous mandatory language requiring that the
government “shall pay” specified amounts creates
“both a right and a remedy under the Tucker Act.” Id.

19
at 1329. That rule has only “two exceptions”: the
normal Tucker Act remedy is displaced when (1) the
money-mandating statute “contains its own judicial
remedies,” or (2) the APA provides an alternative
avenue for relief. Id. (quoting United States v. Bormes,
568 U.S. 6, 12 (2012)). Under that straightforward
test, the Court had no difficulty concluding that the
explicit shall-pay language of §1342 authorized a
Tucker Act suit to enforce its mandatory shall-pay
obligation, and that neither the ACA nor the APA
provided any alternative remedy that would supplant
that remedy. Id. at 1328-31.
As the Federal Circuit correctly held, Maine
Community inescapably requires the same result
here. The mandatory language used in the two
statutes “is indistinguishable.” Sanford, 969 F.3d at
1381. Section 1342 required that the government
“shall pay” the specified risk-corridor amounts; §1402
requires
that
the
government
“shall
make … payments” equal to the specified cost-sharing
reduction amounts. Indeed, if anything, the §1402
shall-pay obligation is even more unambiguously
mandatory, because the government has no argument
that its payment-out obligation is contingent on the
amount of payments-in. Thus, the §1402 shall-pay
obligation, no less than the §1342 shall-pay obligation,
“‘falls
comfortably
within
the
class
of
moneymandating statutes that permit recovery of
money damages in the Court of Federal Claims.’” Id.
(quoting Maine Cmty., 140 S.Ct. at 1329).
Section 1402’s unambiguously mandatory shallpay language “is ‘bolstered’ here, as it was in Maine
Community, by the character of the obligation as

20
‘compensating insurers for past conduct.’”
Id.
(brackets omitted) (quoting Maine Cmty., 140 S.Ct. at
1329). The amounts that §1402 ultimately requires
the government to pay are reimbursements “for actual
amounts already expended by insurers to carry out the
cost-sharing reductions” that the ACA mandates. Id.
Section 1402 thus reflects precisely the same kind of
“backwards-looking formula to compensate insurers
for losses incurred in providing healthcare coverage
for the prior year” that this Court found supported a
Tucker Act suit in Maine Community. 140 S.Ct. at
1329; see Sanford, 969 F.3d at 1381.
Just as in Maine Community, moreover, neither
of the “two exceptions” that could foreclose a Tucker
Act suit applies here. Sanford, 969 F.3d at 1381; see
Maine Cmty., 140 S.Ct. at 1328. The ACA does not
contain a separate remedial scheme with “‘its own
judicial remedies’” for violations of either §1342 or
§1402. Sanford, 969 F.3d at 1382 (quoting Maine
Cmty., 140 S.Ct. at 1329). And the APA likewise does
not provide any alternative avenue for relief since, “as
in Maine Community, the insurers here ‘do not ask for
prospective, nonmonetary relief to clarify future
obligations; they seek specific sums already
calculated, past due, and designed to compensate for
completed labors.’” Id. (quoting Maine Cmty., 140
S.Ct. at 1330-31).
Put simply, there is “no persuasive basis for
distinguishing these cases from Maine Community.”
Id. at 1373. Here as in Maine Community, the
government’s refusal to honor its shall-pay obligation
“is enforceable through a damages action in the Court

21
of Federal Claims under the Tucker Act.” Id. at 137273; see Maine Cmty., 140 S.Ct. at 1328-31; Pet.App.11.
2. The government nevertheless argues that a
different result may be warranted here, at least if this
Court rejects the Federal Circuit’s misguided
mitigation theory. Its argument entirely ignores the
governing legal framework that this Court just
reaffirmed and is plainly meritless.
Remarkably, the government does not address the
straightforward analysis that this Court set out in
Maine Community for determining whether a statute
provides a cause of action under the Tucker Act. See
Sanford, 969 F.3d at 1378; Maine Cmty., 140 S.Ct. at
1328-31. It does not dispute that the shall-pay text of
§1402 imposes an unambiguous money-mandating
obligation and is “indistinguishable” from the nearidentical shall-pay text in Maine Community.
Sanford, 969 F.3d at 1381; see Maine Cmty., 140 S.Ct.
at 1328-29. Nor does it dispute that §1402 is “focus[ed]
on compensating insurers for past conduct” and “uses
a backwards-looking formula to compensate insurers
for losses incurred in providing healthcare coverage
for the prior year.” Maine Cmty., 140 S.Ct. at 1329;
see Sanford, 969 F.3d at 1381. Nor does it dispute that
neither of the “two exceptions” this Court recognized
in Maine Community applies here. Sanford, 969 F.3d
at 1380-82; see Maine Cmty., 140 S.Ct. at 1328-30.
In fact, the government does not even argue that
the Federal Circuit actually erred in concluding that
the unambiguously mandatory language of §1402
authorizes a Tucker Act suit. Instead, the government
offers only a contingent argument that the Federal
Circuit’s liability holding would somehow become

22
“infirm” if its separate damages holding were
reversed. That unabashedly results-oriented position
makes no sense. There is no precedent for the tail of
damages to wag the dog of a Tucker Act remedy in this
manner. The test this Court laid out in Maine
Community for whether an unambiguous moneymandating statute authorizes a Tucker Act suit
depends on the language of the statute and whether
alternative judicial remedies are available, not on the
magnitude of the government’s breach or its resulting
shall-pay obligations, such that Congress could not
have envisioned a remedy for a truly consequential
default. 140 S.Ct. at 1327-31. Indeed, it was in the
context of the government’s failure to make some
twelve billion dollars in required payments, that this
Court took pains to make explicit in Maine
Community that its “analysis in Tucker Act cases has
never revolved on such results-oriented reasoning.”
Id. at 1331 n.14.
The government nevertheless presses on with its
“marked departure from the Maine Community
analysis,” Sanford, 969 F.3d at 1382, arguing for a
freewheeling and atextual inquiry into whether
“Congress intended to allow insurers to recover” under
the Tucker Act. U.S.Pet.19. But the question of
Congress’ intent is answered by the statutory text:
When Congress passes an unambiguous shall-pay
statute “mandating compensation by the Federal
Government,” it intends the government to uphold its
end of the bargain. When the government does not,
and neither the statute itself nor the APA provides an
alternative judicial remedy, that statutory shall-pay
command authorizes a Tucker Act suit. Maine Cmty.,
140 S.Ct. at 1328. Here as in Maine Community, no

23
further nebulous inquiry into what Congress might
have intended had it anticipated that the Executive
Branch would ignore its commands is either necessary
or appropriate.
In any event, the government’s intent-based
arguments are wholly unpersuasive even on their own
terms. To be clear, the government does not suggest
that cross-respondents have some alternative judicial
remedy under the ACA or APA. The government’s
claim is not that cross-respondents are in the wrong
court or have opted for the wrong cause of action. The
government’s far more extraordinary claim is that
Congress silently intended to foreclose any judicial
remedy and force defaulted insurers to engage in a
convoluted self-help regimen that requires the
cooperation of state regulators, increased premiums
for a wide range of innocent insureds, and the artificial
expansion of tax credits. Specifically, the government
contends that Congress must have intended §1401 to
displace the usual Tucker Act remedy for the
government’s breach of its mandatory obligations
under §1402, on the theory that “insurers’ loss of costsharing reduction reimbursements could cause the
insurers to secure (from state regulators) permission
to raise premiums, and that such higher premiums
would lead to higher premium tax credits under
[§1401], offsetting the loss of the cost-sharing
reduction payment [under §1402].” Sanford, 969 F.3d
at 1382; see U.S.Pet.19 (calling this sequence “the
predictable (and predicted) effect of the [government’s]
failure to make direct CSR payments”).
That argument is truly extraordinary.
The
remedial scheme that the government envisions—that

24
to remedy the government’s default, Congress would
want insurers to raise some premiums (which is
exactly what the Affordable Care Act was meant to
prevent) to a large group of insureds so that a subset
would obtain some additional premium tax credits
payable to the insureds under §1401—would make
Rube Goldberg proud. The notion that this sequence
of events is “so self-evident and so reliable” that
Congress plainly must have intended it to displace the
normal Tucker Act remedy across the board, Sanford,
969 F.3d at 1382—even for insurers who never
actually received any additional premium tax
credits—strains credulity.
What is more, the government’s proposed justraise-your-rates remedy wreaks significant collateral
damage that Congress could not have intended. Many
insurance customers are partly or wholly ineligible for
premium tax credits; for them, rate hikes just
increase—sometimes dramatically—the amount they
have to pay out of pocket for insurance. Moreover, not
every insurer’s pool of customers is the same; some
insurers have a higher proportion of CSR-eligible
customers than their competition because they
specialize in serving lower-income populations.
Perversely, the government’s proposed “remedy”
would penalize these insurers, who would be forced to
raise their rates more than the competition. It is not
plausible that Congress intended these outcomes
under a law that was meant to incentivize insurers to
make health care more affordable.
The notion that the insurers’ sole remedy for the
government’s default of its §1402 shall-pay obligations
would be to seek state permission to raise premiums

25
in hopes of collecting additional tax credits under
§1401 suffers from an even deeper flaw. Far from
remedying the government’s §1402 violation, such a
“remedial” scheme would lock in the §1402 violation in
perpetuity. If the answer to a government default
under §1402 is that insurers must seek and obtain
permission to raise premiums to artificially generate
additional tax credits under §1401, then the
government need never come into compliance with
§1402. It can continue to default on its §1402 shallpay obligations in perpetuity confident in the
knowledge that insurers and state regulators will
understand that they are to seek recompense through
inflated §1401 tax credits. This is no hypothetical.
The government last made a statutorily required
§1402 payment in 2017, and it has announced no plans
to come into compliance any time soon. And if its
“remedial” argument is correct, it never will. The
notion that Congress would intend that the sole
remedy for a violation of a clear shall-pay obligation
would be to effectively eliminate the need to comply
with that obligation in perpetuity blinks reality.
At a bare minimum, if Congress had in fact
intended §1401 to serve as a remarkably roundabout
and incomplete but nevertheless exclusive remedy for
any breach of the government’s mandatory obligations
under §1402, one would expect Congress to have at
least mentioned that fact—and given insurers the
opportunity to weigh that unsatisfactory remedy in
deciding whether to offer plans with cost-sharing
reductions on the ACA exchanges. Instead, as the
government apparently concedes, nothing in the
statutory text or even the legislative history remotely
suggests that Congress intended the premium tax

26
credits of §1401 to serve as a substitute for the costsharing reduction payments of §1402—much less that
Congress intended §1401 to displace the normal
Tucker Act remedy for any breach of §1402’s
unambiguous
money-mandating
obligations.
Sanford, 969 F.3d at 1382-83; Pet.App.66-67, 77-78;
123-24, 134.
The government’s suggestion that
Congress intended §1401 to serve as “a built-in
mechanism by which insurers that do not receive CSR
payments can recover their costs of making costsharing
reductions,”
U.S.Pet.19,
is
wholly
unsupported and wholly unpersuasive.
Still worse, nothing in the government’s intentbased argument actually distinguishes this case from
Maine Community. Contrary to what the government
suggests, see U.S.Pet.18, the briefing in that case
made clear that the government’s failure to make riskcorridor payments did “cause[] premiums to increase.”
U.S.Br.49, Maine Cmty. Health Options v. United
States, No.18-1023 (U.S. filed Oct. 21, 2019); see
Pet.Br.59-60, Moda Health Plan, Inc. v. United States,
No.18-1028 (U.S. filed Aug. 30, 2019); Moda Health
Plan, Inc. v. United States, 908 F.3d 738, 748 (Fed. Cir.
2018) (Wallach, J., dissenting from denial of
rehearing) (explaining that insurers “had to
compensate for this uncertainty in payment [from the
government’s breach of its §1342 obligations] by
offering health plans at higher prices than before”
(emphasis in original)). The fact that the government
did not go further and argue that the insurers’ real
remedy was to purposefully raise premiums even
further in hopes of recouping its losses via increased
tax credits is simply a testament to the implausibility
of the argument, not a demonstration that it could not

27
have been equally made in the context of the
government’s shall-pay obligations under §1342. 2
Notably, even the government is unwilling to
endorse the full consequences of its argument. Under
the government’s “necessarily … categorical” theory,
no insurer can ever bring suit under the Tucker Act to
recover amounts that the government unambiguously
owes under §1402—even if that insurer never received
any additional (purportedly “offsetting”) premium tax
credits under §1401. Sanford, 969 F.3d at 1376. Yet
the government calls it a “closer question” whether
§1402 authorizes a Tucker Act suit for unpaid 2017
cost-sharing reductions because of how late in the year
it announced its plan to cease making cost-sharing
payments.
U.S.Pet.20.
In other words, the
government suggests that §1402 may provide a
Tucker Act remedy sometimes, but not always.
That defies common sense. “To give these same
words [of §1402] a different meaning for each [year]
would be to invent a statute rather than interpret
one.” Clark v. Martinez, 543 U.S. 371, 378 (2005).
Either the unambiguous money-mandating text of
§1402 authorizes a Tucker Act suit, or it does not. The
The government suggests Maine Community was different
because insurers set premiums and sold coverage before
Congress enacted its appropriations riders each year, raising
distinct retroactivity concerns. U.S.Pet.18-19. But so too here:
Insurers set premiums and sold coverage each year before
Congress decided whether to appropriate funds to meet the
government’s unambiguous obligations under §1402. See supra
pp.7-8. Congress’ failure to appropriate the necessary funds,
after insurers had already sold their plans and provided the
required cost-sharing reductions, raises equally significant due
process and retroactivity problems.
2

28
statute cannot be read to authorize a Tucker Act suit
only in cases where the government concedes that
compensation is warranted.
The government’s
unwillingness to accept the full consequences of its
invented rule confirms that the correct reading is the
simple one required by Maine Community: Insurers
may enforce the unambiguous money-mandating
obligation imposed by §1402 by “su[ing] the
Government under the Tucker Act to recover on that
obligation.” Maine Cmty., 140 S.Ct. at 1319.
II. The Government’s Remaining Arguments
Are Equally Unpersuasive.
Apparently recognizing that there is no
persuasive reason for this Court to review the liability
issue, the government suggests that the Court should
hold its cross-petition and remand for the Federal
Circuit to reconsider liability in the event the Court
reverses on the damages issue. U.S.Pet.13-14, 22.
That proposal is doubly nonsensical.
For one thing, it would make no sense for this
Court to resolve the damages question while reserving
the possibility of a remand that could render its
resolution of that issue moot. If (contrary to fact) there
were any serious reason to question the Federal
Circuit’s resolution of the liability issue, then that
issue obviously should be resolved before the Court
addresses damages. But the government’s proposal
makes even less sense given that its no-liability
argument is just an even less persuasive variant of its
damages argument—as the government itself seemed
to recognize when it converted the argument from a
liability argument to damages argument on appeal.
Thus, if this Court rejects that argument even as a

29
basis for “mitigating” damages, the Federal Circuit
could not plausibly embrace the very same justrejected argument as a basis for letting the
government off the hook entirely.
The government protests that the Federal
Circuit’s liability holding might be “infirm” if its
damages holding were reversed because the former
rested “in part” on the latter.
U.S.Pet.13; see
U.S.Pet.14-16. That is a considerable overstatement.
The Federal Circuit’s 23-page slip opinion in Sanford
dedicated a full 11 pages of analysis to liability,
explaining in detail why the unambiguous moneymandating language of §1402 and the holding of
Maine Community squarely compelled the conclusion
that a Tucker Act suit is available. See Sanford, 969
F.3d at 1378-83 (slip op. 13-23). Given the parallels
between §1402 and §1342–two mandatory shall-pay
obligations in the same statute—the question was
neither close nor difficult. The court concluded that
lengthy analysis by observing in the penultimate
sentence of its opinion that, in its view, damages law
could “accommodate[] the practical interaction of the
two subsidy mechanisms without departing from the
established principles governing Tucker Act coverage
of payment-mandating provisions as most recently set
forth in Maine Community.” Sanford, 969 F.3d at
1383 (slip op. 23). That one sentence does not
remotely suggest that the court would (let alone
should) have ignored all those “established principles”
and the clear instructions of Maine Community had it
realized the correct rule of damages gave it less scope
for practical accommodation than it envisioned. Nor
would it make any sense for this Court to preserve the
option for the Federal Circuit to make such a mistake

30
on remand.
Maine Community forecloses the
government’s misguided Tucker Act argument no
matter how this Court decides the damages issue.
The government insists that the Federal Circuit’s
liability holding would have to be revisited to prevent
“double recoveries” if its damages holding were
reversed. U.S.Pet.16 (quoting Sanford, 969 F.3d at
1383); see U.S.Pet.20-21. But one of the many reasons
the Federal Circuit’s damages holding was wrong is
because there are no “double recoveries” to avoid. As
the Court of Federal Claims correctly explained in
rejecting that argument, §1401 and §1402 “are not
substitutes for each other.” Pet.App.67, 124. They
impose separate obligations vis-à-vis different and
only partially overlapping groups of insureds, and the
fact that the government is meeting one does not
excuse its failure to meet the other. Holding the
government to its obligations under §1401 thus cannot
produce any “unwarranted windfall,” whether those
obligations increased because the government failed
to meet its separate obligations under §1402 or for
some other reason. Pet.App.67, 77-78, 123-24, 134.
And if the interaction between those two provisions
creates the potential for the government’s obligations
under one to increase if it injures insurers by ignoring
its obligations under the other—a dynamic that is
hardly unique to those two of the ACA’s many
interrelated provisions—that is not a “problem” for
courts to purport to “fix” through extratextual
solutions. In all events, the ACA guards against any
risk of insurers receiving windfalls, as other
provisions of the Act cap participating insurers’ profits
and require them to rebate any excess to their
insureds.
See 42 U.S.C. §300gg-18; 45 C.F.R.

31
§158.210. It is thus not just insurers, but also the
insureds—including insureds who faced increased
premiums without the aid of tax credits—that the
government seeks to avoid making whole.
Finally, the government emphasizes the practical
significance of the Federal Circuit’s decision, noting
the “immense sums” that the government concedes it
is required to pay under the unambiguous language of
§1402 but has continued to refuse to actually disburse.
U.S.Pet.20; see supra p.8 (noting the government’s
obligations of $433 million in unmade cost-sharing
payments for 2017 and approximately $6.7 billion for
2018). That is certainly a good reason to grant review
and reverse the Federal Circuit’s damages holding,
which could deprive insurers of most or even all the
money Congress promised them. The large sums
involved also explain the government’s willingness to
embrace a bizarre “remedial” argument that would
allow it continue to disregard its §1402 shall-pay
obligations in perpetuity. But it does not begin to
justify review of the government’s cross-petition, let
alone provide any basis to affirm the government’s
dubious effort to renege on yet another multi-billiondollar promise that Congress made to insurers in the
ACA without even having to answer for its actions in
court.

32
CONCLUSION
For the foregoing reasons, this Court should grant
certiorari in No. 20-1162 and deny the government’s
conditional cross-petition.
Respectfully submitted,
STEPHEN J. MCBRADY
PAUL D. CLEMENT
CROWELL &
Counsel of Record
MORING LLP
ERIN E. MURPHY
1001 Pennsylvania Ave., C. HARKER RHODES IV
NW
ELIZABETH HEDGES
Washington, DC 20004 KIRKLAND & ELLIS LLP
(202) 624-2547
1301 Pennsylvania Ave., NW
smmcbrady@crowell.com Washington, DC 20004
(202) 389-5000
Counsel for Maine
paul.clement@kirkland.com
Community Health
Options

WILLIAM L. ROBERTS
FAEGRE DRINKER
BIDDLE & REATH
2200 Wells Fargo Ctr.
90 South 7th Street
Minneapolis, MN 55402
(612) 766-7000
william.roberts@
faegredrinker.com
Counsel for Community
Health Choice, Inc.

May 17, 2021

Counsel for CrossRespondents

